 QUALITY CONTROL REVIEW OF THE
DEPARTMENT’S IMPLEMENTATION OF
 EARNED VALUE MANAGEMENT AND
   SECURITY COST REPORTING
      Department of Transportation


      Report Number: QC-2009-048
       Date Issued: April 24, 2009
           U.S. Department of
                                                            Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Quality Control Review of                              Date:    April 24, 2009
           the Department’s Implementation of Earned
           Value Management and Security Cost Reporting
           Report Number: QC-2009-048
  From:    Rebecca C. Leng                                                       Reply to
                                                                                 Attn. of:   JA-20
           Assistant Inspector General for Financial
            and Technology Audits
    To:    Acting Chief Information Officer, DOT

           This report summarizes the results of the audit of the Department of
           Transportation’s implementation of earned value management (EVM), and the
           supportability of estimated security costs for major information technology (IT)
           investments. 1 The Department requested about $2.4 billion for 46 major IT
           investments in its Fiscal Year 2009 budget submission, including about $116
           million in security funding.

           The Clinger-Cohen Act of 1996 requires Federal agencies to establish effective
           management structures to govern IT investments and to improve their
           implementation and management. The Office of Management and Budget (OMB)
           developed Federal policy for planning, budgeting, acquiring, and managing
           Federal IT assets. In addition, OMB’s Capital Programming Guide directs
           agencies to develop, implement, and use a capital programming process that (1)
           fully implements EVM 2 for IT projects, with emphasis on those designated as
           high-risk; (2) integrates IT security into their strategic and operational planning
           processes; (3) institutes performance measures and management processes that
           monitor actual performance and compares them against planned results; and (4)
           provides senior agency management and OMB with a Capital Asset Plan and


           1
             A major IT investment is one that requires special management attention because of its importance to an
             agency’s mission or the magnitude of the investment.
           2
             Earned value management is a management tool that is used to plan, execute, and control the costs and
             schedules of IT projects.
                                                                                              2



Business Case (Exhibit 300) that documents the justification, management
oversight practice, and status for each major IT investment. 3

OMB requires agencies to employ EVM to calculate cost and schedule variances
from the approved baseline for all major IT investments in the development phase
appearing on Exhibit 300s. When properly implemented, EVM provides insight
on program performance by comparing the value of work accomplished in a given
period against the planned value of work scheduled for that period.

An independent firm—KPMG, LLP, of Washington, D.C.—carried out this
performance audit under contract to the Office of Inspector General (OIG). The
objectives were to determine whether (1) the earned value management measures
included in the OMB Exhibit 300 submissions properly reflected project
performance, and (2) security costs included in the submissions were supported.

KPMG’s report can be found in its entirety in Appendix A. KPMG’s scope and
methodology and review results are included in Appendix A, starting on pages 15
and 18, respectively. We performed a quality control review of the audit work to
ensure that it complied with generally accepted government auditing standards as
prescribed by the Comptroller General of the United States. In our opinion,
KPMG’s audit work complied with applicable standards.

The following summarizes KPMG’s findings.


FINDINGS
KPMG concluded that the EVM measures included in Exhibit 300 submissions
could not be relied upon to properly reflect project performance. KPMG found
that the Department lacked a standard approach for implementing EVM systems
because the implementation guide specified in the departmental policy was never
issued. KPMG reviewed six major investment projects and found them deficient
in meeting the requirements specified by OMB. For example, EVM requirements
were not specified in acquisition contracts, and certification reviews of contractor
systems used to compile EVM data were not conducted, as required by OMB.

Further, KPMG concluded that the Department had no assurance that the security
cost estimates included in the budget submission were adequate to protect its
information systems. The Department has not established a standard method to
3
    OMB Circular A-11 (section 300) and OMB’s Capital Programming Guide (supplement to Part 7 of
    Circular A-11).
                                                                                                     3



accurately and consistently estimate the costs of implementing IT security.
According to the Operating Administrations, they estimate security funding needs
through historical cost data, yet they were unable to provide support or
justification for their security cost figures.


Departmental EVM Policy and Implementation Guide Are
Incomplete, Leaving the Department without a Roadmap to
Guide Proper EVM Implementation

Per OMB, agencies were to develop a comprehensive EVM policy no later than
December 31, 2005. In January 2008, DOT issued its EVM policy. 4 The policy
contained pre-established dollar thresholds mandating at what levels of
expenditure IT projects must implement EVM, as well as general guidance for
implementing an earned value management system (EVMS). Yet specific
implementation guidance to ensure consistent and reliable EVM implementation
across the Operating Administrations was lacking.5 For example, guidance is
needed for:

       Provisions for EVM training to ensure that program office staff and
        contractor personnel are properly trained on the analysis of generated
        earned value data.

       Integration of EVM practices with portfolio management to ensure that
        EVM data are used in capital planning and investment control decisions.

       Standards to capture project scope/work assignments and use of standard
        work breakdown structure (WBS) to ensure that large projects are properly
        broken down into smaller components for compiling EVM data. This
        allows a program manager to more precisely identify which components are
        causing cost overruns or schedule delays, and more effectively mitigate
        their root causes.

       Enforcement of joint government/contractor consultation with respect to the
        Integrated Baseline Review to support cost and schedule rebaselining. This
        ensures that integrated baseline reviews are conducted regularly and with
        proper personnel to adjust cost, schedule, and performance goals.

4
  A memorandum jointly issued by the departmental Chief Information Officer, Chief Financial Officer,
  and the Deputy Chief Acquisition Officer entitled DOT Earned Value Management Policy, January 14,
  2008.
5
  In the absence of Departmentwide implementation guidance, the Federal Aviation Administration and the
  Federal Motor Carrier Safety Administration developed EVM implementation guidance for their own use.
                                                                                                      4



          Protection of EVM data from unauthorized changes. It should describe any
           templates, tools, and systems utilized and controls needed to ensure that
           data are collected consistently and protected from unauthorized changes.

The Department had planned to complete the draft EVM implementation guide by
March 31, 2008. However, according to the former Chief Information Officer, a
lack of dedicated resources impeded the planned action. The Department has not
established a revised target date for completing the implementation guide. Until
this guide is developed and disseminated across the Department, the Operating
Administrations will lack a roadmap for full and consistent EVM implementation
as intended by OMB to ensure the integrity and reliability of EVM data.


Operating Administrations Did Not Meet OMB Requirements for
EVM Implementation, Rendering EVM Data Unreliable in
Measuring Project Performance

To ensure reliable EVM implementation for major IT investment projects, OMB
requires agencies to (1) include EVM requirements in acquisition contract
provisions, (2) conduct EVM certification and surveillance reviews, 6 (3) use work
breakdown structure for work decomposition, and (4) conduct performance
reviews using EVM data. KPMG selected a judgmental sample of six major IT
investments, with a total life-cycle value of $4.2 billion. These investment
projects are managed by three Operating Administrations—the Federal Aviation
Administration (FAA), the Federal Motor Carrier Safety Administration
(FMCSA), and the Pipeline and Hazardous Materials Safety Administration
(PHMSA).

As shown in Table 1 below, KPMG found that Operating Administrations did not
consistently meet OMB requirements when implementing EVM for these major
investments. Specifically, the six sampled major IT investments were deficient in
performing one or more of the four required key EVM components. As a result,
the Department has no assurance that the EVM data used to measure the cost,
schedule, and performance of these investments properly and realistically reflect
accurate project performance.




6
    These reviews are required to ensure that the system used to compile EVM data meets OMB requirements
    and can be relied upon for measuring program performance.
                                                                                                5



            Table 1. Extent to Which Sample Investments Met
                        OMB EVM Requirements
                                               Planning                          Controlling
                              Standard
    Operating                   EVMS            EVMS            WBS for             EVMS
    Administration            Language         System            Major            Contractor
    Major IT                 Included in     Certification    Investments        Surveillance
    Investments a            Contracts?      Performed?          Used?           Performed?

    FAA—TAMR                     Yes              No               Yes                Yes

    FAA—ASOS/AWOS                 No              No               Yes                Yes

    FAA—ATOP                      No              Yes              Yes                No

    FAA—ATM/TFM                  Yes              Yes              Yes                No

    PHMSA—SMART                   No              No                No                No
    FMCSA—
    Modernization                 No              No               Yes                No
a
    For full names of Operating Administrations and their IT systems, see Tables 2 and 3 on pages
    15 and 16 (Appendix A), respectively.



The Department Had No Assurance That Security Cost
Estimates Included in Its Budget Submission Were Adequate To
Protect Its Information Systems

National Institute of Standards and Technology Special Publication 800-65,
Integrating IT Security into the Capital Planning and Investment Control Process,
directs agencies to estimate security costs based on a process that identifies,
prioritizes, and corrects security weaknesses identified with their computer
systems. KPMG found that the Department had not established guidance or
practices to ensure consistent estimation of IT security costs for its major IT
investments. According to the Operating Administrations, they estimate security
funding needs only through historical cost data. Yet they were unable to show
how such historical data support their security cost estimate figures.

Further, in a matter related to the adequacy of security cost estimation but not part
of the KPMG review, we found that Operating Administrations did not request
adequate funding to correct security deficiencies. As disclosed in our annual
information security audit, the Operating Administrations had not estimated the
costs for remediating more than half (2,493 out of 4,286) of the security
                                                                                                 6



deficiencies found in departmental information systems. 7 In addition, security
cost estimates varied significantly among the Operating Administrations—ranging
from less than 1 percent to 23 percent of their IT budget requests. In our opinion,
such a disparity signals inconsistent and potentially unreliable estimation practices
in the Department (see Table 2). Accordingly, the Department has no assurance
that the security cost estimates included in the budget submission are adequate to
protect its information systems.


                      Table 2. FY 2009 Budget Requests for IT
                              and IT Security Spending

                                                       Estimated IT
                                         Total IT        Security          % of IT
                  Operating              Budget            Costs           Security
                  Administrationa     (in millions)    (in millions)        Costs
                  FAA                     $2,518.21          $40.14           1.59%
                  FHWA                         18.59             1.19         6.42%
                  FMCSA                        26.41             1.29         4.89%
                  FRA                          15.19             1.20         7.90%
                  FTA                          12.57             0.37         2.97%
                  MARAD                         4.09             0.03         0.80%
                  NHTSA                        20.79             1.49         7.18%
                  OSTb                       342.97            80.20         23.38%
                  PHMSA                         8.74             0.35         4.04%
                  RITA                         12.97             0.36         2.80%
                    Total                 $2,980.53         $126.62           4.25%
              a
                  For full names of Operating Administrations, see Table 2 in Appendix A.
              b
                  Security estimates for OST comprise departmentwide operations such as the
                  Cyber Security Management Center.
.             Source: OIG analysis based on DOT’s Exhibit 53, Agency IT Investment Portfolio,
              submission to OMB.



RECOMMENDATIONS

On page 41 in Appendix A, KPMG made a series of recommendations to DOT
management for improving EVMS processes/practices and security cost
estimation. We agree with KPMG’s recommendations and have summarized them
below (Recommendations 1 and 3).         We also supplemented KPMG’s
recommendations to ensure that deficiencies identified during the audit are
corrected (Recommendation 2).

7
    Audit of DOT Information Security Program, OIG Report Number FI-2009-003, October 8, 2008.
                                                                               7




Based on KPMG’s findings, we recommend that the departmental Acting Chief
Information Officer:

1. Establish a target date to complete and distribute the DOT EVM
   implementation guidance to Operating Administrations. This guidance should
   document processes and practices consistent with guidelines published by
   OMB and address the detailed recommendations included in KPMG’s report in
   Appendix A.

2. Require Operating Administrations to review all major IT investments in the
   development phase for compliance with key OMB requirements for EVM
   implementation and report results to the CIO office. Ensure that Operating
   Administrations establish a target date for correcting deficiencies found.

3. Establish security cost estimation standards consistent with the National
   Institute of Standards and Technology, require Operating Administrations to
   follow the standards, and verify compliance with the standards by performing a
   sample review of Operating Administrations’ security cost estimate
   submissions.


AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE
We provided a draft of this report to the Acting DOT Chief Information Officer
for comment on March 25, 2009, and received her response on April 10. She
concurred with all of our recommendations, and stated that her office is in the
process of developing new policy and guidance to ensure full compliance with
earned value management as directed by the Office of Management and Budget.
This includes implementation of standards for security estimation techniques
across the Department. The response can be found in its entirety in Appendix B.

In general, management actions—begun and planned—adequately address the
intent of our recommendations. The Acting DOT Chief Information Officer’s
responses to our recommendations are summarized below:

Recommendation 1:         Concurred. The Acting Chief Information Officer stated
that a new DOT earned value management policy and associated guidelines will
be issued by September 30, 2009. The new guidelines will include standards,
processes, templates, and techniques for implementation and use of EVM
consistent with Office of Management and Budget requirements.
                                                                                8



Recommendation 2:        Concurred. The Acting Chief Information Officer stated
that each Operating Administration has a plan of action and milestones established
for EVM implementation, and is required to report to the CIO all progress toward
meeting the Department’s goal of full compliance by December 31, 2009.
Additionally, the Acting Chief Information Officer is in the process of enhancing
program management review tools to provide a complete picture of the health of
investment projects for decision-making. EVM measures submitted by Operating
Administrations will be included for the health evaluation.

Recommendation 3:        Concurred. The Acting Chief Information Officer stated
that by June 30, 2009, new guidance to standardize security cost estimating
techniques in accordance with the National Institute of Standards and Technology
approach will be disseminated Departmentwide. In addition, by August 30, 2009,
the Office of the Chief Information Officer will conduct sample reviews to verify
that the departmental security cost estimating guidelines are used by Operating
Administrations in preparing Exhibit 300 budget submissions for FY 2011.

ACTIONS REQUIRED
Management actions taken and planned are responsive to our recommendations,
and are considered resolved subject to follow-up provisions in DOT Order
8000.1C.

We appreciate the courtesies and cooperation of representatives from the
departmental Chief Information Officer’s office, the Operating Administrations,
and KPMG during this audit. If you have any questions concerning this report,
please call me at (202) 366-1407 or Michael Marshlick, Project Manager, at
(202) 366-1476.

                                          #

cc:   Martin Gertel, M-1
      CIO Council Members
                                                               9



APPENDIX A. KPMG LLP REPORT                     FINAL REPORT




Department of Transportation
Earned Value Management and Security Cost
Reporting Performance Audit




Prepared for: DOT Office of Inspector General

As of Date: July 31, 2008




Prepared By:
KPMG LLP
2001 M Street NW
Washington DC 20036




Appendix A. KPMG LLP Report
                                                                                                                                                     10
                                                         Table of Contents
                                                         FINAL REPORT

REPORT

EXECUTIVE SUMMARY .......................................................................................................................... 2
I. BACKGROUND .................................................................................................................................. 4
II. OBJECTIVE, SCOPE, AND METHODOLOGY ................................................................................ 6
III. RESULTS ............................................................................................................................................. 9
IV. FINDINGS and RECOMMENDATIONS.......................................................................................... 26
V. MANAGEMENT RESPONSE TO REPORT .................................................................................... 33




Appendix A. KPMG LLP Report
                                                                                                     11

                          KPMG LLP
                          2001 M Street, NW                                           FINAL REPORT
                          Washington, DC 20036



EXECUTIVE SUMMARY

February 13, 2009

OFFICE OF INSPECTOR GENERAL
U.S. DEPARTMENT OF TRANSPORTATION
1200 NEW JERSEY AVENUE, SE
WASHINGTON, D.C. 20590


KPMG LLP (KPMG) was contracted by the Department of Transportation (DOT) Office of Inspector
General (OIG) under Contract No. DT0S59-06-A-00031, Order No. 2007-Z-0003 to conduct a
performance audit of the department’s adoption and use of Earned Value Management Systems (EVMS)
across the Departmental Operating Administrations (OAs), (i.e., modes), and specifically for certain
Information Technology (IT) investments. This performance audit report presents the results of our work
conducted to address the performance audit objectives relative to the DOT. Our work was performed
during the period of March 3, 2008 to July 31, 2008, and our results are as of July 31, 2008.

We conducted this performance audit in accordance with generally accepted government auditing
standards (GAGAS). Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe that the evidence obtained provides a reasonable basis for our findings and
recommendations based on our audit objectives.

The audit objectives of the notification dated February 19, 2008 related to project number 07F3017F000
are to determine whether (1) the EVMS measures included in the Exhibit 300 submissions properly
reflect project performance, (2) security costs included in the Exhibit 300 submissions are supported, and
(3) OA management actively monitors its major IT investments to meet departmental requirements. We
were tasked to review DOT’s EVMS capability to assess how mature the Department is in EVMS as it
relates to guidelines referenced in legislation, policy, and standards pertaining to EVMS. The results of
this performance audit address objectives (1) and (2) referenced above. The Office of Inspector General
(OIG) is addressing objective (3) and EVMS data being used for program oversight and control in a
separate report.

The DOT has established an EVMS policy that contains pre-established dollar thresholds and guidance
for IT investment owners to consider when implementing EVMS. In addition, various modes have
improved their use of EVMS by establishing supporting materials, such as IT project management and
EVMS implementation guidance, providing EVMS training and conducting EVMS lessons learned.
While these items help provide a foundation of EVMS guidance for modes to follow and investments to
use, there are opportunities for improvement to further implement and use EVMS to help manage major
IT investments.

Overall, based on the interviews conducted, documents inspected, and test procedures performed within
the audit program guide, we determined that the DOT has inconsistently applied controls across the ten
(10) departmental modes and seven (7) IT investments. As a result, the EVMS-related processes used to
collect and report EVMS data cannot be relied on to properly reflect project performance in Exhibit 300



Appendix A. KPMG LLP Report                                                                     Page      2
                                                                                                        12



                                                                                         FINAL REPORT

submissions. In addition, we found that project management practices related to EVMS are not
consistently applied across the OAs and major IT investments. Finally, the security cost estimates that are
derived for Exhibit 300 submissions cannot be fully supported. Timely implementation of the
recommendations is needed to fulfill departmental requirements and achieve maturity in managing IT
investments.

We currently report, for the DOT’s consideration, three recommendations from this performance audit.
These recommendations include 1) Controls over the reliability of EVMS data should be strengthened, 2)
Controls over the reasonableness of security cost estimates should be strengthened, and 3) Controls over
the implementation and use of EVMS in project oversight should be strengthened. EVMS provides
organizations with the methodology needed to integrate the management of project scope, schedule, and
cost. Implementation of these recommendations should enable DOT to improve reliability of data needed
to oversee IT projects and make investment decisions. The detailed objectives of this performance audit
are enumerated within Section II. Findings and Recommendations are enumerated within Section IV.

This performance audit did not constitute an audit of financial statements in accordance with Government
Auditing Standards. KPMG was not engaged to, and did not render an opinion on the DOT’s internal
controls over financial reporting or over financial management systems (for purposes of OMB’s Circular
No. A-127, Financial Management Systems, July 23, 1993, as revised). KPMG cautions that projecting
the results of our evaluation to future periods is subject to the risks that controls may become inadequate
because of changes in conditions or because compliance with controls may deteriorate.

Sincerely,




Appendix A. KPMG LLP Report                                                                      Page    3
                                                                                                       13


I. BACKGROUND                                                                           FINAL REPORT


The Department of Transportation (DOT) mission is to serve the United States by ensuring a fast, safe,
efficient, accessible and convenient transportation system that meets our vital national interests and
enhances the quality of life of the American people, today and into the future. 1 .DOT invested
approximately $2.7 billion annually in information technology (IT). In order to derive the intended
benefits of the programs and projects within the IT portfolio, project planning and execution processes
should be in place to control the establishment of baseline performance measures and manage deviations
from expected performance plans. Earned Value Management (EVM) data is a critical component of the
control phase of the IT capital planning process, because it provides investment managers with the cost,
schedule, and performance data necessary to help ensure that DOT investments are delivered on time and
perform within budget and scope. The addition of the variance and trend analysis aspect of EVM permits
an evaluation that monitors deviation from the baseline plan, which may indicate potential threats or
opportunities. Proper application of EVM also increases the level of confidence of management that the
investment is being managed in accordance with sound project management practices and is consistent
with DOT goals and objectives.

The Office of the Secretary of Transportation (OST) is responsible for establishing the requisite policies
and procedures to govern the DOT modes within the department for managing investments within the IT
portfolio, including policies and procedures related to IT capital planning and investment control (CPIC),
program management and project management. These policies and procedures should reflect Office of
Management and Budget (OMB) guidance, including provisions for using EVM and estimating IT
security costs for investments. In addition, the Operation Administrations (or modes) within DOT are
responsible for implementing the policies and procedures promulgated by OST in a manner consistent
with both the underlying objectives. Table 2 contains a listing of the key legislation, policies, and
standards pertaining to EVMS and IT investment and project management.




1
    www.dot.gov
Appendix A. KPMG LLP Report                                                                     Page    4
                                                                                                                     14

                                                                                                   FINAL REPORT

                                                  Table 1: EVMS Legislation, Policies and Standards
    Criteria                                                  Description 
   Legislation        Government Performance and Results Act of 1993 – mandates the use of performance 
                       metrics. 
                      Federal  Acquisition  Streamlining  Act  of  1994  –  requires  agency  heads  to  achieve,  on 
                       average,  90%  of  the  cost  and  schedule  goals  established  for  major  and  non‐major 
                       acquisition programs of the agency without reducing the performance or capabilities of 
                       the items being acquired. 
                      Clinger  Cohen  Act  of  1996  –  requires  establishment  of  the  processes  for  executive 
                       agencies to analyze, track, and evaluate the risks and results of major investments in IT 
                       and requires reporting on the net program performance benefits achieved by agencies. 
    Policies          Office  of  Management  and  Budget  (OMB)  Circular  A‐11  (Part  7,  Planning,  Budgeting, 
                       Acquisition  and  Management  of  Capital  Assets)  –  outlines  a  systematic  process  for 
                       program  management,  which  includes  integration  of  program  scope,  schedule,  and 
                       cost objective; requires use of earned value techniques for performance measurement 
                       during execution of the program; specifically identifies ANSI/EIA Standard 748. 
                      OMB  Memorandum  M‐04‐24,  “Expanding  Electronic  Government  (E‐Gov)  President’s 
                       Management Agenda (PMA) Scorecard Cost, Schedule and Performance Standards for 
                       Success”  –  provides  additional  information  on  the  President’s  Management  Agenda 
                       Expanded  Electronic  Government  initiative  and  the  standard  for  success  concerning 
                       cost, schedule and performance goals. 
                      OMB Memorandum M‐05‐23, “Improving Information Technology (IT) Project Planning 
                       and  Execution”  –  provides  guidance  to  assist  agencies  in  monitoring  and  improving 
                       project planning and execution and fully implementing EVMS for major IT projects. 
   Standards      1.   ANSI/EIA  Earned  Value  Management  System  (EVMS)  Standard  748  –  industry  process 
                       for use of EVMS including integration of program scope, schedule and cost objectives, 
                       establishment of a baseline plan for accomplishment of program objectives, and use of 
                       earned  value  techniques  for  performance  measurement  during  the  execution  of  a 
                       program. 
                  2.   Project  Management  Institute  (PMI)  Standard  for  Earned  Value  Management  – 
                       developed as a supplement to “A Guide to the Project Management Body of Knowledge 
                       (PMBOK Guide).”  The Practice Standard for EVM is designed to provide a fundamental 
                       understanding  of  the  principles  of  EVM  and  its  role  in  facilitating  effective  project 
                       management. 




Appendix A. KPMG LLP Report                                                                                 Page      5
                                                                                                              15



II.     OBJECTIVE, SCOPE, AND METHODOLOGY                                                    FINAL REPORT


KPMG LLP (KPMG) was contracted by the Department of Transportation (DOT) Office of Inspector
General (OIG) under Contract No. DT0S59-06-A-00031, Order No. 2007-Z-0003 to conduct a
performance audit of the department’s adoption and use of Earned Value Management Systems (EVMS)
across the departmental Operating Administrating (OAs), (i.e., modes), and specifically for certain
Information Technology (IT) investments.

Objectives

The audit objectives of the notification dated February 19, 2008 related to project number 07F3017F000
are to determine whether (1) the EVM measures included in the Exhibit 300 submissions properly reflect
project performance, (2) security costs included in the Exhibit 300 submissions are supported, and (3) OA
management actively monitors its major IT investments to meet departmental requirements. We were
tasked to review DOT’s EVMS capability to assess how mature the Department is in EVMS as it relates
to guidelines referenced in legislation, policy, and standards pertaining to EVM. The results of this
performance audit address objective’s (1) and (2) referenced above. The OIG has addressed objective (3)
and EVM data being used for program oversight and control in a separate report.

Scope

The performance audit procedures were designed to evaluate the implementation of EVM and security
cost estimating and reporting practices over ten OAs and seven major 2 IT investments selected by the
OIG summarized in Table 2 and 3 below.

                            Table 2: Scope of EVM and Security Cost Reporting Analysis by Mode
                            Modes                                     Earned Value           Security Cost 
                                                                      Management              Reporting  
                                                                          (Y/N)                 (Y/N) 
Federal Aviation Administration (FAA)                                       Y                      Y 
Office of the Secretary of Transportation (OST)                             Y                      Y 
Federal Highway Administration (FHWA)                                       Y                      Y 
Federal Motor Carrier Safety Administration (FMCSA)                         Y                      Y 
National Highway Traffic Safety Administration (NHTSA)                      Y                      Y 
Federal Transit Administration (FTA)                                        Y                      Y 
Maritime Administration (MARAD)                                             Y                      Y 
Federal Railroad Administration (FRA)                                       Y                      Y 
Research and Innovative Technology Administration (RITA)                    Y                      Y 
Pipeline and Hazardous Materials Safety Administration (PHMSA)              Y                      Y 
Surface Transportation Board (STB) 3                                        N                     N 
Saint Lawrence Seaway Development Corporation (SLSDC)3                      N                     N 




2
 “Major” investment refers to an IT investment requiring an OMB Exhibit 300 business case.
3
 During our analysis, OA management informed us that they do not have any major IT investments nor have they
implemented any EVMS over their IT portfolio. Therefore, the OIG determined to exclude these modes from the
scope of this performance audit.
Appendix A. KPMG LLP Report                                                                         Page       6
                                                                                                                            16


                                                                                                         FINAL REPORT

           Table 3: Scope of EVM and Security Cost Reporting Analysis for Major Investments
                                Major Investments                                          Earned Value         Security Cost 
                                                                                           Management            Reporting 
                                                                                               (Y/N)               (Y/N) 
FAA: Terminal Automation Modernization and Replacement (TAMR)                                    Y                    Y
FAA: Automated Surface Observing System/Automated Weather Observing                              Y                    Y
System (ASOS & AWOS) 
FAA: Automated Traffic Management/Traffic Flow Management (ATM/TFM)                               Y                    Y
FAA: Advanced Technologies and Oceanic Procedures (ATOP)                                          Y                    Y
PHMSA: Safety Monitoring and Analysis Reporting Tool (SMART)                                      Y                    Y
FMCSA: Federal Motor Carrier Safety Administration (FMCSA) Modernization                          Y                    Y
OST: IT Combined Infrastructure                                                                   N                    Y 

We designed the procedures to gain an understanding of how each mode and IT investment in scope has
instituted practices related to EVM and security cost reporting, divided into the following sections:

 EVM Governance: Includes the policies and supporting guidance (i.e., project and program
  management) available to implement and use EVM.

 EVM Tools & Technology: Includes the EVM tools and related technologies used for IT projects
  (i.e., EVM-related tools, EVM engines, cost accounting tools, scheduling and resource management
  tools and technology integration).

 EVM Implementation & Performance: Includes EVM supporting standards and practices (e.g.,
  work breakdown structure and use, contract and scope management, resource planning and
  management, and EVM analysis techniques), EVMS certification 4 , EVMS surveillance 5 , EVM
  training, and EVM lessons learned.

 Security Cost Governance: Includes the policies and procedures in place for security cost analysis
  and estimation.

 Security Cost Estimating, Analysis and Reporting: Includes the practices used in analyzing,
  estimating, and reporting security costs.

Our fieldwork was performed during the period of March 3, 2008 to July 31, 2008 and our results are as
of July 31, 2008 at Washington, D.C. headquarters and Federal Aviation Administration (FAA) locations.


Methodology

We performed this performance audit in accordance with the Government Auditing Standards issued by
the Government Accountability Office (GAO). In particular, we designed our procedures to conform to a
performance audit defined by the Government Auditing Standards. We performed our engagement in
three phases: (1) planning, (2) testing and interviewing, and (3) report writing.



4
  EVMS certification refers to the process by which the EVMS is evaluated to verify that it meets the full intentions of the
guidelines presented in the ANSI EIA-748 standard. Source: www.ndia.org
5
  EVMS surveillance refers to the process of reviewing the health of the EVMS as it is applied to one or more programs. Source:
www.ndia.org
Appendix A. KPMG LLP Report                                                                                         Page      7
                                                                                                17

                                                                                 FINAL REPORT

The planning phase was designed to help ensure that team members developed a collective
understanding of the EVM and security cost reporting practices in place for the ten OAs and the
seven major investments. We provided separate questionnaires to each mode and to each
investment program team. The questionnaires were designed to provide a foundational
understanding for conducting interviews and for identifying additional documentation requests.

During the testing and interviewing phase, we conducted interviews, collected and inspected
provided artifacts, participated in process walk-throughs, and designed and performed test
procedures. We conducted these test procedures primarily at DOT headquarters and FAA
facilities in Washington D.C. Testing procedures over the EVM and security cost reporting
practices were based on the Federal legislation, policies and industry standards.

When our test procedures required us to select a sample of items from a population for testing,
we used a judgmental sample selection methodology. Accordingly, our recommendations are
applicable to the sample we tested and were not extrapolated to the population (i.e., all OAs and
all major investments).

The report writing phase entailed writing a draft report, conducting an exit conference, providing
a formal draft report to OIG for review, and preparing and issuing the final report.




Appendix A. KPMG LLP Report                                                              Page    8
                                                                                                        18



                                                                                         FINAL REPORT


III.       RESULTS

Feedback is critical to the success of any project. Timely and targeted feedback can enable project
managers to identify problems early and make adjustments that can keep a project on time and on budget.
In addition, early identification of cost and schedule variance information is needed by agency executives
to monitor and control risks within its investment portfolio. Earned Value Management (EVM) has
proven to be one of the most effective performance measurement and feedback tools for managing
projects. EVM provides organizations with the methodology needed to integrate the management of
project scope, schedule, and cost. 6

Cost data on security spending is necessary to help ensure IT investments have adequately identified and
budgeted for security in a federal IT investment.

In the following section of the report, we provide the results of our performance audit across the
following sections: Earned Value Management (EVM) Governance; EVM Tools & Technology; EVM
Implementation & Performance. In addition, we provide the results of our performance audit within the
sections Security Cost Governance and Security Cost Estimating, Analysis and Reporting.

EVM Governance

EVM Governance consists of the policies, procedures and practices in place to establish requirements for
EVM implementation and performance management within project and program management practices.
The Office of the Secretary of Transportation (OST) is responsible for providing this guidance to the
operational administrations (OAs), (i.e., modes), with the exception of the Federal Aviation
Administration (FAA), discussed further below. The FAA has created its own policy and guidance for
EVM.

OST EVM Policy
The Department of Transportation (DOT) EVM Policy was made effective on January 14, 2008. This
version of the policy (i.e., first phase of implementation) is to be exclusively applied to IT projects and
programs and only to work performed under contract. Management represents that future policy updates
will broaden the scope to include all DOT programs and work performed by both federal employees as
well as contractors.




6
    Project Management Institute (PMI) Standard for Earned Value Management, 2005.
Appendix A. KPMG LLP Report                                                                      Page    9
                                                                                                                                                         19


                                                                                                                                 FINAL REPORT

The degree to which EVM is applied to IT investments will vary depending on the size and complexity of
the IT investment, as depicted in Table 4 below:

                                                                                                Table 4: DOT EVM Requirements
    Investment    Total Contract                                                          Description 
       Tier           Value 
      Tier I         > $20M         IT investments with total development, modernization and enhancement (DME) life‐cycle acquisition costs 
                                    equal  to  or  greater  than  $20  million  and/or  those  on  the  OMB  High  Risk  List.    Tier  I  investments  must 
                                    implement  an  EVMS  that  fully  complies  with  American  National  Standard  ANSI/EIA  Standard  748  EVMS 
                                    Guidelines. 
      Tier II         > $3M         IT Investments with total DME life‐cycle acquisition costs equal to or greater than $3 million but less than 
                     < $20M         $20  million  (excluding  level  of  effort  tasks).    Tier  II  investments  must  apply  EVM  principles  for  tracking 
                                    investment  cost,  schedule,  and  technical  performance  but  need  only  comply  with  a  subset  of  ANSI/EIA 
                                    Standard 748 Guidelines, as detailed in the DOT EVM Implementation Guide. 
      Tier III        < $3M         IT investments with total DME life‐cycle acquisition costs of less than $3 million (excluding level of effort 
                                    tasks).    Tier  III  investments  must  apply  EVM  principles  to  track  investment  cost,  schedule  and  technical 
                                    performance, but are not required to comply with the ANSI/EIA 748 Guidelines.  The extent to which EVM 
                                    is  required  for  each  Tier  III  investment  is  determined  by  the  risk,  dollar  amount,  and  complexity  of  the 
                                    investment, as detailed in the DOT EVM Implementation Guide. 


Additional DOT EVM policy requirements include:
 EVM is to be applied to contractor work, regardless of contract type.
 Where applicable, EVM requirements must be clearly indicated in the investment’s solicitation and
   the resulting contract. The Contracting Officer (CO) shall insert requirements provided by the
   Program Manager (PM) or Contracting Officer’s Technical Representative (COTR) into the contract
   for Integrated Baseline Reviews (IBR’s) 7 for Tier I and Tier II investments, and for Tier III
   investments, as deemed necessary by the Contracting Officer and Program/Project Manager. The
   Contract Data Requirements List (CDRL) must provide that EVM data for these investments be
   submitted via the Contractor Performance Report (CPR).
 EVM implementation shall be consistent with all DOT IT Governance processes and related
   procedures.
 Waivers to this policy are to be submitted by the Program Manager (PM)/CO in writing to the OA
   CIO, prior to submission to DOT CIO for approval. Processing of waivers will be detailed in the to-
   be released DOT EVM Implementation Guide 8 . Grant of waivers in no way implies exemption from
   sound and rigorous management practices, or from continuous monitoring of program/project cost,
   schedule, and technical performance.

While the DOT policy contains these requirements, it does not address certain other EVM considerations.
For example, the policy does not include provisions related to assigning work elements to Federal
employees; does not contain provisions for training, integration with portfolio management, and the use
of templates and tools; does not require the FAA to follow the policy even though FAA’s EVM policy
requirements are more stringent and are accompanied by EVM implementation guidance; and the EVM
implementation guidance referenced throughout the DOT EVM policy has not yet been created nor


7
  An Integrated Baseline Review (IBR) refers to a government-led review that is intended to ensure the government and
contractor mutually understand program scope, schedule, resources, inherent risk, and management approach, and to ensure early
and adequate planning. Source: DOT EVM Policy dated January 18, 2008.
8
  After fieldwork concluded, management informed us that the DOT Implementation Guide was discontinued in June 2008 in
favor of a more robust and detailed EVM policy. We were not informed of the discontinued effort, nor were we provided with
the updated EVM policy.
Appendix A. KPMG LLP Report                                                                                                                    Page 10
                                                                                                                             20


                                                                                                            FINAL REPORT

promulgated to assist the OAs and major investments. We have included this weakness in the Findings
section of this report.

Additionally, OST management has not implemented standards to support an enterprise approach for
managing and applying EVM across the modes. This includes the promotion of standards for articulating
and capturing project scope and work assignments and enforcing this through the IBR, decomposing work
using a standard work breakdown structures (WBS) 9 for IT development projects, managing concurrent
efforts through an Integrated Master Schedule (IMS) 10 , guidelines for retaining rebaselining
documentation, and conducting EVM training and lessons learned. We have included this weakness in
the Findings section of this report.

FAA EVM Policy
The FAA has its own acquisition system known as the Acquisition Management System (AMS), which
establishes the FAA’s acquisition policy. In 2005, the FAA developed its own EVMS policy and
incorporated it into the AMS. The key requirements of the policy include:

    Contractor EVM implementation must be consistent with the program’s acquisition strategy. All
     capital investment programs must use table 5 to determine the application of EVM to the DME 11
     work assigned to contractors. The requirements apply to all contract types. On an exception basis,
     low-risk contractor efforts, i.e., firm fixed price production, may implement EVM within a FAA
     program office at the program level. Contractor EVM implementation must be based on an
     assessment of the cost, schedule, and technical performance risk of each contract.

                                                                         Table 5: FAA Contract EVMS Requirements
                                                    Total Contract Value ($M)                   Total Contract Value ($M) 
            EVMS Requirements                                 >$10                                        <$10 
       Contract Performance Report                              R                                          O 
        Integrated Master Schedule                              R                                          O 
        Integrated Baseline Reviews                             R                                          O 
        EVMS Standard Compliance                                R                                          O 
         EVM System Certification                               R                                          O 
Notes: 
R = Required by approving authority
O = Optional


      Capital investment programs required to use an EVMS must be certified as meeting the guidelines
       of ANSI/EIA-748. The EVM Focal Point assesses and validates EVM implementation and monitors
       application to ensure compliance. The AIO Value Management Office certifies program EVM
       systems. FAA contractors required to use an EVM system must be certified as meeting the
       guidelines of ANSI/EIA-748. Contractor EVM implementation must be validated by the Contracting
       Officer, assisted by the EVM Focal Point. The EVM Focal Point determines whether a contractor
       requires an EVMS certification review or whether an existing certification and EVM surveillance


9
  A Work Breakdown Structure (WBS) is a deliverable-oriented hierarchical decomposition of the work to be executed by the
project team to accomplish the project objectives and create the required deliverables. Source: PMBOK Guide – Third Edition.
10
   An Integrated Master Schedule refers to a multilayered schedule showing all the detailed tasks required to accomplish the work
effort contained with a set of projects or program(s). Source: Defense Acquisition Guidebook.
11
   Development, Modernization and Enhancement (DME) means the project cost for new investment, changes or modifications to
existing systems to improve capability or performance, changes mandated by the Congress or agency leadership, personnel costs
for investment management, and direct support. For major IT investments, this amount should equal the sum of amounts
reported for planning and acquisition in the Exhibit 300. Source: DOT EVM Policy dated January 18, 2008.
Appendix A. KPMG LLP Report                                                                                           Page 11
                                                                                                                                               21


                                                                                                                           FINAL REPORT

       process are acceptable. The EVM Focal Point will establish agreements with other government
       agencies to recognize contractor EVM certifications and surveillance reports.


The FAA has also issued an EVM Implementation Guide dated February 2006 that addresses EVM
implementation on FAA programs, FAA contracts, and EVM certification and surveillance. FAA
programs are to apply EVM methodologies to the total program effort, including both government and
contractor work, to better manage complex, high-risk, high-cost, or high-visibility efforts. FAA programs
may utilize multiple sources to accomplish the work of the program and commonly assign work to the
following performing organizations that must be included in the EVMS as depicted in Table 6:

                                                                      Table 6: EVMS methodologies for organizations
  Performing Organization                                                        EVMS consideration 
 Government Organizations:    Government  organizations  and  personnel  (Full‐Time  Equivalents  –  FTEs),  while  commonly  used  to  perform 
                              program  management  and  oversight,  may  also  perform  engineering,  testing,  deployment,  and  logistics 
                              support functions.  All work and program activities performed by government personnel  are assigned using 
                              the program baseline work breakdown structure (WBS) and are managed using EVM.  FAA programs required 
                              to  use  EVM  must  include  resources  for  all  government  DME  effort  included  in  the  JRC‐approved  program 
                              baseline. 
     Major Contractors        Major  contractors  commonly  are  employed  in  the  areas  of  design,  engineering,  development,  deployment, 
                              and  support  functions.   All  work  and  program  activities  performed  by  major  contractors  are  assigned  using 
                              the  program  baseline WBS  and  are  managed  using  EVM.   FAA  programs  required  to  use  EVM  must  include 
                              resources  for  all  major  contractor  effort  included  in  the  JRC‐approved  program  baseline.   When  a  program 
                              awards a contract greater than $10M for development, modernization, and enhancement work, the contract 
                              effort is managed by an EVMS.  A Contractor Performance Report (CPR) and Integrated Master Schedule (IMS) 
                              are  obtained  consistent  with the  JRC‐approved  OMB‐300. These  reports  may  be  tailored  and  customized  in 
                              accordance  with  their  respective Data  Item  Descriptions  (DID),  specific  program  risks,  and  performance 
                              measurement  metrics/reports  included  in  the  OMB‐300.    The  contractually  required  EVMS  used  by  each 
                              contractor must meet the guidelines in American National Standard ANSI/EIA‐748 and be certified. 
    Support Contractors       Support  contractors  commonly  perform  support  roles  in  one  or  more  areas  of  program  management, 
                              engineering,  configuration  management,  test,  and  logistics.   All  work  and  program  activities  performed  by 
                              support  contractors  are  assigned  using  the  program baseline WBS  and  are  managed  using  EVM.   FAA 
                              programs required to use EVM must include resources for all support contractor effort included in the JRC‐
                              approved  program  baseline.   Implementation  of  EVM  on  support  contractor  effort  must  be  consistent  with 
                              AMS Earned Value Management policy.   
    Small contracts and       When  a  program  awards  a  contract  less  than  $10M  for  DME  work,  the  contract  may  be  managed  using  an 
      subcontracts            EVMS following the optional policy guidelines outlined in AMS.  A CPR and IMS are optional requirements on 
                              the contract.  IBRs may be performed to ensure planning is adequate.  The EVMS, if required, should follow 
                              the guidelines of American National Standard ANSI/EIA‐748, and a certification of the EVMS may be required. 


The FAA also requires the use of a standard lifecycle WBS. The use of EVMS during the planning
phases (WBS 1.0 and 2.0) is considered by FAA management to be a best practice when the work
involves prototyping or testing software. EVM is used during the solution development phase (WBS
3.0), solution implementation phase (WBS 4.0), and in service management phase activities (WBS 5.0).
The FAA also has provided guidance on program management practices such as Quality Assurance for
Program Management, Measurement and Analysis, Evaluation (Verification), Requirements, Risk
Management, Program Management, and Contractor Management.

EVM Tools and Technology

EVM tools consist of the tools used to create and manage the cost and schedule of projects, including
those for developing WBS elements, tracking the completion of project activities, and performing EVM
related calculations (e.g., cost variance (CV), cost performance index (CPI), schedule variance (SV),
schedule performance index (SPI)). Currently, there are no prescribed or standard tools selected by OST
for managing projects, performing project level EVM calculations or reporting EVM data.


Appendix A. KPMG LLP Report                                                                                                            Page 12
                                                                                                                  22


                                                                                                FINAL REPORT

Across the OAs, management informed us that each project is managed differently and the tools used to
report EVM data may also differ for the IT investments. For the majority, the modes and investments use
Microsoft Excel to calculate or report the EVM data and the project WBS and schedule of activities are
managed within Microsoft Project or, with the case of FAA, Primavera. A breakdown of the various
tools used to report project information and EVM data is included in Table 7 below.

                                 Table 7: EVM tools and technology across modes and IT investments
       Mode or (Investment)          EVM calculations/reporting     EVM portfolio reporting     Schedule / WBS 
                                           (project level) 
      FAA  (ATOP) (ATM/TFM)                   MS Excel             eCPIC / Worklenz (FY2009)      MS Project 
           (ASOS/AWOS)                                                                            Primavera 
                                                   
            FAA (TAMR)                       Primavera 
               OST                            MS Excel             eCPIC / Worklenz (FY2009)      MS Project 
     FHWA, NHTSA, MARAD, FRA,                 MS Excel                      eCPIC                 MS Project 
       RITA, PHMSA (SMART) 
FMCSA (FMCSA Modernization)                   MS Excel                      eCPIC                 MS Project 
                                                                                                   MS Excel 


According to OA management, for the EVM data being reported through MS Excel, controls to prevent
unauthorized changes to these tools have not been identified to protect the EVM data validity or integrity.
We have included this weakness in the Findings section of this report.


EVM Implementation and Performance
The effective use of EVM requires that it is used on projects where the principles of good project
management are being applied. Project management is primarily a matter of planning and controlling
work. 12 EVM considerations through each project include the following:

         Project Process – Planning
        Standard EVMS requirements exist in contracts for major investments - This consideration helps
         ensure that applicable contractor statements of work (SOW) include EVM policy requirements.
         This is a requirement by the Office of Management and Budget (OMB).
        EVMS system certification should be performed for major investments – This consideration helps
         ensure that the EVMS being used by the contractor has been thoroughly evaluated by the
         government and adheres to requirements established in relevant policies and SOW (e.g.,
         ANSI/EIA 748). This is a requirement by OMB.
        Standard work breakdown structure (WBS) and practices are used for major investments – This
         consideration helps ensure that a consistent and repeatable manner is used to decompose work,
         estimate resource requirements for project work elements, estimate project activity duration and
         sequencing, establish EVM credit techniques, and assign work elements within the WBS through

        the use of Organizational Breakdown Structures (OBS) 13 and Responsibility Assignment
         Matrices (RAM) 14 . This is considered a leading practice but is not a requirement.


12
  Project Management Institute (PMI) Standard for Earned Value Management, 2005.
13
  An Organizational Breakdown Structure (OBS) depicts the organization hierarchy, allowing the project’s work
packages to be related to be performing organizational units. Source: PMI’s Practice Standard for Work Breakdown
Structures, 2nd edition.
Appendix A. KPMG LLP Report                                                                              Page 13
                                                                                                            23


                                                                                               FINAL REPORT


       Project Process – Controlling
      EVMS system surveillance should be used for contractors managing EVMS for major investments
       –This consideration helps ensure that the EVMS being used by contractors, through EVM
       reporting and periodic evaluation, continue to meet EVMS certification and SOW requirements.
       This is a requirement by OMB.


      EVMS is analyzed minimally monthly in accordance with OST’s requirement - This consideration
        helps ensure that EVM data is being evaluated on a consistent monthly basis, per OST
        requirements. This is considered a leading practice but is not a requirement.


As noted above, these EVM implementation and performance practices either are required by OMB
policy, DOT policy, or are related to industry-based practices. We evaluated these EVM related attributes
across each mode and IT investment in order to verify the implementation and performance is contained
in Table 8 below.




14
  A Responsibility Assignment Matrix (RAM) is a structure that relates the project OBS to the WBS to help ensure
that each component on the project’s scope of work is assigned to a responsible person/team. Source: PMI’s
Practice Standard for Work Breakdown Structures, 2nd edition.
Appendix A. KPMG LLP Report                                                                           Page 14
                                                                                                                                 24


                                                                                                              FINAL REPORT

              Table 8: EVMS Implementation & Performance Management by Mode/Investments 15
 Project Processes                       Planning                                              Controlling 

                        Standard EVMS 
                                                            Standard 
                           contract      EVMS system 
                                                            WBS for         EVMS contractor 
      Mode / EVM          language        certification 
                                                             major        surveillance required       EVMS analysis frequency 
        attribute        required for      required 
                                                           investments            (Y/N) 
                           majors            (Y/N) 
                                                              (Y/N) 
                            (Y/N) 

          FAA                 Y                 Y               Y                   Y                         Monthly 

          OST                 Y                N                N                  N                          Monthly 

         FMCSA                Y                N                Y                  N                          Monthly 

         NHTSA                N                 N               Y                  N                          Quarterly 

         PHMSA                N                N                N                  N                          Monthly 

                        Standard EVMS                       Standard 
                                         EVMS system 
                           contract                         WBS for         EVMS contractor 
     IT investment /                      certification 
                         language for                        major        surveillance required       EVMS analysis frequency 
     EVM attribute                         required 
                           majors                          investments            (Y/N) 
                                             (Y/N) 
                            (Y/N)                             (Y/N) 
      FAA (TAMR)              Y                N                Y                   Y                         Monthly 


 FAA (ASOS/AWOS)              N                N                Y                   Y                         Monthly 


       FAA (ATOP)             N                 Y               Y                  N                          Monthly 


     FAA (ATM/TFM)            Y                 Y               Y                  N                          Monthly 


     PHMSA (SMART)            N                N                N                  N                          Monthly 


     FMCSA (FMCSA             N                N                Y                  N                          Monthly 
     Modernization) 
This analysis indicates that the modes and investments are inconsistently applying EVMS implementation
and performance practices. With regard to the modes,

      PHMSA, and NHTSA did not fully specify standard EVMS contract language for investments;
      OST, NHTSA, FMCSA, and PHMSA did not fully enforce EVMS certification over contractor
       operated EVMS;
      OST and PHMSA do not use a standard WBS for major IT investments;


15
  FHWA and FTA management represents that for their mode, major investment(s) are in a steady state other than
development, modernization or enhancement (DME) and do not require EVM; therefore the EVMS attributes listed
in table 8 above currently are not in place. FRA and RITA management represents that EVMS is not currently
required based on the investment tier of their major investments as required in the DOT EVM policy. Finally,
MARAD management represents that there are no major investments currently in their portfolio; therefore, EVMS is
not required.
Appendix A. KPMG LLP Report                                                                                           Page 15
                                                                                                        25


                                                                                          FINAL REPORT

   OST, NHTSA, FMCSA, and PHMSA did not fully implement EVMS contractor surveillance
    practices;
   NHTSA EVMS reporting frequency is not being performed monthly, as prescribed by OST.

For the investments we analyzed,
 ASOS/AWOS, ATOP, SMART and FMCSA Modernization IT investments did not fully specify
    standard EVMS contractor language. For example,
    o In the IAA with the National Weather Service (NWS), the ASOS/AWOS program does not
        contain any provisions for EVMS or the data required to be collected in order to support FAA
        EVMS measurements.
    o For contract line item number (CLIN) 7270, several ATOP statements of work do not contain
        EVMS reporting requirements. While EVMS was not required in the statements of work, EVMS
        is a requirement in the prime contract.
    o In the Inter-Agency Agreement (IAA) with the Volpe Center for the SMART investment, EVMS
        reporting requirements are unclear such as what EVM metrics are to be collected and at what
        level of the project; what earned value credit techniques are to be used; what reporting formats are
        to be used.
    o For the FMCSA Modernization investment, the SOW does not contain requirements for EVMS to
        be certified, be subject to surveillance, or consideration for EVM metrics and EVM credit
        techniques.
 TAMR, ASOS/AWOS, SMART and FMCSA Modernization IT investments did not fully enforce
    EVMS certification. For example,
    o While the EVMS for the contractor (Raytheon) for TAMR was DCMA certified on January 28,
        2008, the FAA has not evaluated/audited the contractors EVMS specific to the STARS contracts
        which includes TAMR nor have they fully accepted the DCMA validation.
    o The ASOS/AWOS contractors EVMS is not certified. The contract was awarded prior to the
        FAA Acquisition Management Policy requirement for contractor EVMS certification in 2005. In
        addition, ASOS/AWOS had prepared a Plan of Action and Milestones (POAMs) to improve
        EVM processes and procedures identified through surveillance activities to achieve EVM
        compliancy; however, the implementation plan has not been developed.
    o The SMART investment contractor’s (i.e., the Volpe Center within DOT) EVMS has not been
        certified consistent with ANSI standards, nor are their SOW requirements for this to occur.
    o The FMCSA Modernization EVMS has not been certified.
 SMART has not fully considered the use of a standard WBS.
 ATOP, ATM/TFM, SMART and FMCSA Modernization IT investments did not fully implement
    EVMS surveillance. For example,
    o EVMS reporting requirements have not been prescribed by the ATOP program for their prime
        contractor. Reporting requirements have continued to emerge as the projects continues to run.
    o Management represents that, although standard reporting is used for the ATM/TFM investment,
        SMART investment and FMCSA Modernization investment, EVMS surveillance is not occurring
        to help ensure the EVMS continues to meet required standards (e.g., ANSI/EIA STD 748).




Appendix A. KPMG LLP Report                                                                       Page 16
                                                                                                       26

                                                                                         FINAL REPORT

These weaknesses have been included in the Findings section of this report.


Governance for Estimating, Analyzing and Reporting Security Costs

OST is responsible for providing policies and procedures over the modes for estimating, analyzing and
reporting IT security costs. According to OST, there are no specific policies or procedures in place for
estimating, tracking and reporting security costs. This includes provisions for distributing resources
based on assessed risks; provisions for using risk analysis, earned value and return on investment to
determine which security controls should be funded and implemented; provisions for linking information
security expenditures to the strategy and mission of the program; provisions for linking the security costs
to OMB A-11 categories; and provisions for developing a performance plan that addresses security
resources including budget, staffing and training. This weakness is included in the Findings section of
this report. In 2003, OST provided the Cost Estimating Tool for Information Security (CETIS) for use by
all OAs; however, management represents that the figure being estimated by the tool was above any
historical estimates, so the tool was discontinued because OST would not approve the requested amounts.
Subsequently, the OAs used a fixed percentage to represent estimated security costs; however, all of the
OAs requested the same percentage.

Across the modes, management represents that historical information and a risk-based approach to
addressing security weaknesses are being used to estimate security costs. The major IT investments
follow the modes methods for estimating security costs (i.e., TAMR, ASOS/AWOS, ATOP and
ATM/TFM follow FAA, SMART follows PHMSA, and FMCSA Modernization follows FMCSA).
These security costs are funded through the investment that has to address security weakness, are
centrally funded through the program office if they are broader scope security costs, or a combination of
the both. Table 9 contains a summary of how management represents each mode is reporting their
security costs as (A) embedded into project budgets, (B) funded separately, or (C) both.




Appendix A. KPMG LLP Report                                                                      Page 17
                                                                                                                                              27


                                                                                                                         FINAL REPORT

                                                        Table 9: Security Cost Estimating and Reporting by Mode
Mode/Investment        Policy for                       Security related costs                           (A) Security embedded in projects 
                      developing 
                       security                                                                            (B) Security funded separately 
                      estimates?                                                                                      (C) Both  
                        (Y/N) 

       OST                N          Mode‐level: Security awareness training, privacy training,                        C 
Major Investment:                    and FISMA reporting tool use (i.e., DOJ’s CSAM).  Funds are               Major investment: 
  IT Combined                        requested by OST from the OAs for these services.                System POA&Ms go with the investment 
 Infrastructure                       
                                     Major Investments: The cost of activities associated with 
                                     certification and accreditation, risk assessment, and risk 
                                     mitigation. 
      FAA                 N          Each individual investment team manages security costs as                          C 
     Major                           part of the entire program’s life‐cycle cost. Specific costs              Major investment (s): 
 Investment(s):                      include, among others, as appropriate:                            System POA&Ms go with the investment 
TAMR, ATM/TFM,                           Risk assessment                                                                 
     ATOP, 
  ASOS/AWOS                              Certification and accreditation 
                                         Specific security controls 
                                         Authentication or cryptographic applications 
                                         Education, awareness, and training 
                                         Contingency planning and testing 
                                         Physical controls for hardware and software 
     FMCSA                N          Government FTEs in IT Security; contractors supporting IT                         C 
Major Investment:                    Security; WBS items in EVM systems that align with the                   Major investment (s): 
     FMCSA                           WBS dictionary for IT Security.                                  System POA&Ms go with the investment 
 Modernization                                                                                                           
       FTA                N          (Security) The cyclical schedule for security “ Certification                     C 
                                     and Accreditation”; data encryption requirements;                System POA&Ms go with the investment 
                                     compliance with HSPD‐12, compliance with E‐                                         
                                     Authentication standards; and corrective actions based on 
                                     IG, GAO, C&A, FMFIA audits are inputs to security costs for 
                                     an Information Technology Investment. 
     FHWA                 N          Operational Cost, to maintain security controls costs and                        C 
                                     to comply with FISMA (NIST SP‐800‐53 annual control              System POA&Ms go with the investment 
                                     testing, annual DR testing, security plan review, etc.).  It 
                                     also depends on other annual DOT and OMB 
                                     requirements. 
      RITA                N          The cost of activities associated with certification and                             B 
                                     accreditation, risk assessment, and risk mitigation.             Most security costs are borne at the RITA 
                                                                                                      CIO level and not embedded in the project 
                                                                                                                       budgets. 
       FRA                N          FRA develops cost estimations based on historical                                    C 
                                     information for the program, remediation’s required (if          System POA&Ms go with the investment. 
                                     any) and economies of scale for shared components.                                     
                                      
    PHMSA                 N          PHMSA PMs work with the ISSO and CIO team to help                                  A 
Major Investment:                    ensure security costs are funded.  This includes C&A                       Major Investment:  
    SMART                            activities and completing POA&Ms.                                System POA&Ms go with the investment. 
                                      
     NHTSA                N          Risk assessments performed in eRAMS identify risks that                              C 
                                     map to individual 800‐53 security controls which are in          System POA&Ms go with the investment 
                                     turn evaluated for mitigation potential, to include costs.                        typically 
                                                                                                                            
     MARAD                N          Security and Privacy issues are addressed.  A privacy                                C 
                                     impact assessment is provided when applicable, and                 Security is included within projects. 
                                     certification and accreditation is conducted for all IT              Currently C&A efforts are funded 
                                     systems.                                                                         separately. 
 




Appendix A. KPMG LLP Report                                                                                                        Page 18
                                                                                                         28


                                                                                           FINAL REPORT

From a policy standpoint, OST management represents that this is an area that needs greater attention.
Management represents that they have started evaluating security costs across the IT investment portfolio
to begin gaining an understanding around what types of security areas are costing the agency the most
money. For example, during this fiscal year (FY), management has started to evaluate the security costs
over the IT portfolio and have potentially identified certification and accreditation (C&A) activities as one
of the most expensive items related to IT security. As a result, management has represented that they
would consider reengineering the C&A process and promulgating these requirements to the modes with
the goal of creating a streamlined and consistent approach to performing C&A activities which should
provide a more predictable measure of security costs for estimating. In addition, management is
considering collecting and estimating security costs across a common reporting format to be based on the
NIST SP 800-53 control categories. Management believes this reporting format will provide insight into
what security costs represent opportunities to improve the process of estimating security costs and
refining security related policy.

With regard to the IT Combined Infrastructure investment, the investment is a mixed lifecycle investment
that aggregates DOT IT infrastructure and office automation expenditures into a single Exhibit 300
submission to OMB. There are currently 43 investments from 12 subordinate administrations (see Table
10) that contribute to this consolidated investment. This includes 12 investments, which account for
subordinate Operating Administration participation in the DOT Common Operating Environment and
their investment in Common IT Services that are available across the Department. This investment also
includes alternative criteria and performance results of the IT consolidation activities and steady state
operations of the newly established DOT Consolidated Operating Environment (COE) as well as FAA IT
consolidation and cost containment efforts. The investment also includes planning activities for the
extension of the COE to DOT field sites (excluding FAA). The investment excludes infrastructure
telecommunications services that is considered mission specific.

For the 12 COE investments, these security costs are funded through the Working Capital Fund (WCF).
These investments are represented as “Common IT Services” in the table below. Management represents
that current security-related expenditures for the 12 represented OST security investments include:

    1. A cost center named “Information Assurance and Privacy” that includes the associated costs of an
       Interagency agreement (IAA) with FAA to support the Cyber Security Management Center
       (CSMC), FISMA training and reporting, and contractor support and HSPD-12 costs.
    2. Network security costs are included in the “Campus Area Network”. This includes Security
       Operations Center personnel as well as software and hardware security-related purchases.
    3. There are security costs for messaging that are in “Directory and Messaging Services”. This is
       for software and appliances to protect against spam and viruses.
    4. The cost center “Enterprise network operations Center” includes personnel who operate the
       Network Operations Center.

In FY2010, the IT Combined Infrastructure has requested approximately $43M in funding, 21% of which
represents IT security costs. Table 10 below contains the breakdown of the IT security costs for each of
the 43 investments.




Appendix A. KPMG LLP Report                                                                        Page 19
                                                                                                                                        29


                                                                                                                     FINAL REPORT
                                                  Table 10: IT Combined Infrastructure security spend by mode
    Mode/Investment Name          IT Security dollars      Total Investment    % IT security of the     % IT Security of         Total # of 
                                      requested                 budget           total investment      the IT Combined       representative 
                                                                                      request             Investment           investments 
                                 $ 2,047,062.40          $  9,185,000.00       22.29                   4.74%                4 
OST                                                       

                                 $ 1,062,062.40          $ 6,928,000.00        15.33                                         
        OSTXX777 Common IT                                                      
     Services (CONSOLIDATED 
             WITH DOTXX070) 

                                 $957,000                $ 957,000.00          100                                           
    OSTXX041 ‐ Logical Access                             
    Capability (CONSOLIDATED 
            WITH DOTXX070) 

                                 $ 28,000.00             $ 28,000.00           100 
    OSTXX043 – Cyber Security                             
         Management Center 
      (CSMC) (CONSOLIDATED 
             WITH DOTXX070) 

                                 $0.00                   $  1,272,000.00       0 
    WCFXX011:  Departmental                               
                        Print 
      services(CONSOLIDATED 
             WITH DOTXX070) 

                                 $ 37,327,222.80         $ 105,454,000.00      35.4                    86.37%               13 
FAA                                                       

 

                                 $879,912.80             $9,272,000            9.49                                          
       FAAXX777: Common IT 
     Services (CONSOLIDATED 
             WITH DOTXX070) 

                                 $ 643,500.00            $ 12,870,000.00       5                                             
              FAAXX101: FAA                               
       ELECTRONIC MAIL [ATO 
      AN014] (CONSOLIDATED 
             WITH DOTXX070) 

                                 $ 1,779,800.00          $ 35,596,000.00       5 
              FAAXX199: ATO                               
    Workstations [ATO AN018 
               AN029 AN033] 
        (CONSOLIDATED WITH 
                  DOTXX070) 

                                 $ 17,360.00             $ 868,000.00          2 
      FAAXX202:  AHR OFFICE                               
               AUTOMATION 
        (CONSOLIDATED WITH 
                  DOTXX070) 

    XX220:  LAN SUPPORT FOR      $60,000                 $600,000              10 
              THE ASSOCIATE 
        ADMINISTRATOR FOR 
         COMMERCIAL SPACE 
           TRANSPORTATION 
        (CONSOLIDATED WITH 
                  DOTXX070) 

Appendix A. KPMG LLP Report                                                                                                       Page 20
                                                                                                                                           30


                                                                                                                     FINAL REPORT

 Mode/Investment Name            IT Security dollars      Total Investment    % IT security of the      % IT Security of           Total # of 
                                     requested                 budget            total investment     the IT Combined           representative 
                                                                                      request            Investment              investments 
                                $75,200                 $1,504,000            5                                              
FAAXX231:  ABA Operations 
          and Infrastructure 
    (CONSOLIDATED WITH 
                DOTXX070) 

                                $3,800                  $190,000              2 
        FAAXX261:  ARP LAN 
    (CONSOLIDATED WITH 
                DOTXX070) 

                                $ 33,600,000            $ 33,600,000          100 
   FAAXX298:  Information 
 Systems Security Program 
    (CONSOLIDATED WITH 
                DOTXX070) 

                                $ 68,274                $ 3,793,000           1.8 
  FAAXX375:  Aeronautical 
 Center Office Automation 
  Support (CONSOLIDATED 
          WITH DOTXX070) 

                                $95,040                 $1,584,000            6 
   FAAXX409: Aeronautical 
      Center Infrastructure 
             Modernization 
    (CONSOLIDATED WITH 
                DOTXX070) 

                                $4,760                  $238,000              2                        
          FAAXX464:  CMEL 
           LAN/WAN Office 
                Automation 
    (CONSOLIDATED WITH 
                DOTXX070) 

                                $0.00                   $ 1,190,000           0 
            FAAXX620: ASH 
              Infrastructure 
    (CONSOLIDATED WITH 
                DOTXX070) 

                                $99,576                 $4,149,000            2.4 
            FAAXX700: ARC 
   Information Technology 
              Infrastructure 
    (CONSOLIDATED WITH 
                DOTXX070) 

                                $ 1,791,242.40          $ 34,751,000.00       5.15                    4.14%                 4 
FHWA                                                     
                                $76,982.40              $7,776,000            .99                                            
   FHWAX777: Common IT  
  Services (CONSOLIDATED 
          WITH DOTXX070) 




Appendix A. KPMG LLP Report                                                                                                       Page 21
                                                                                                                                            31


                                                                                                                      FINAL REPORT

 Mode/Investment Name             IT Security dollars      Total Investment    % IT security of the      % IT Security of           Total # of 
                                      requested                 budget           total investment      the IT Combined           representative 
                                                                                      request             Investment              investments 
                                 $933,000                $933,000              100                                            
   FHWAX034: User Profile 
 and Access Control System 
(UPACS) (Consolidated with 
                 DOTXX070) 

                                 $105,660                $3,522,000            3 
   FHWAX036: FHWA Web 
 Development and Support 
Services (Consolidated with 
                 DOTXX070) 

                                 $675,600                $22,520,000           3 
        FHWAX040: FHWA IT 
   Infrastructure Initiatives 
          (Consolidated with 
                 DOTXX070) 

                                 $47,490.50              $3,910,000            1.21                    .11%                  2 
PHMSA 

                                 $11,140.50              $3,183,000            .35                                            
       PHMSA777 Common IT 
  Services (CONSOLIDATED 
           WITH DOTXX070) 

                                 $36,350                 $727,000              5                                              
         PHMSA011:  OFFICE 
          AUTOMATION FOR 
ADMINISTRATIVE SYSTEMS 
 SUPPORT (CONSOLIDATED 
           WITH DOTXX070) 

                                 $260,142.20             $6,907,000            3.77                    .6%                   2 
FMCSA 

                                 $35,142,20              $2,407,000            1.46                                           
       FMCSA777: Common IT 
  Services (CONSOLIDATED 
           WITH DOTXX070) 

                                 $225,000                $4,500,000            5                                              
          FMCSA011: Field IT 
               Infrastructure 
       (CONSOLIDATED WITH 
                 DOTXX070) 

                                 $0.00                   $934,000              0                       0%                    1 
STB 

STBXX003:  LOCAL AREA 
NETWORK (CONSOLIDATED 
WITH DOTXX070) 

                                 $59,721.00              $8,622,000            .69                     .14%                  2 
MARAD 

                                 $20,361.00              $3,702,000            .55                                            
       MARAD777 Common IT 
  Services (CONSOLIDATED 
           WITH DOTXX070)  



Appendix A. KPMG LLP Report                                                                                                        Page 22
                                                                                                                                             32


                                                                                                                       FINAL REPORT

 Mode/Investment Name             IT Security dollars      Total Investment     % IT security of the      % IT Security of           Total # of 
                                      requested                 budget           total investment       the IT Combined           representative 
                                                                                      request              Investment              investments 
                                 $39,360.00              $4,920,000            .8                                              
       MARAD015: Operating 
                Environment 
       (CONSOLIDATED WITH 
                  DOTXX070) 

                                 $1,899.70               $157,000.00           1.21                     .004%                 1 
SLSDC 

        SLSDC777 Common IT 
   Services (CONSOLIDATED 
            WITH DOTXX070) 

                                 $728,381.20             $4,936,000            14.76                    1.69%                 3 
FRA 

                                 $28,381.20              $4,236,000.00         .67                                             
       FRAXX777 Common IT 
   Services (CONSOLIDATED 
            WITH DOTXX070) 

                                 $0                      $0                    0                                               
 FRAXX022:  Infrastructure‐
                     General 
          Hardware/Software 
  Support (CONSOLIDATED 
            WITH DOTXX070) 

                                 $700,000                $700,000              100 
  FRAXX304: Infrastructure‐
    Information Technology 
            Security Program 
       (CONSOLIDATED WITH 
                 DOTXXO70) 

                                 $461,776.80             $8,271,000.00         5.58                     1.07%                 3 
FTA 

                                 $12,076.80              $3,774,000.00         .32                                             
        FTAXX777 Common IT 
 Services (consolidated with 
                  DOTXX070) 

                                 $276,900.00             $2,769,000.00         10                                              
         FTAXX002: FTA‐COE/ 
Infrastructure (consolidated 
        with DOTXX070)‐ was 
   General Support System 

                                 $172,800.00             $1,728,000.00         10 
       FTAXX022: FTA ‐ Voice, 
             Data & Wireless 
Communications (breakout 
of FTAxx002) (consolidated 
             with DOTXX070) 




Appendix A. KPMG LLP Report                                                                                                         Page 23
                                                                                                                                          33


                                                                                                                        FINAL REPORT

 Mode/Investment Name              IT Security dollars      Total Investment    % IT security of the     % IT Security of         Total # of 
                                       requested                 budget           total investment      the IT Combined       representative 
                                                                                       request             Investment           investments 
                                  $355,038.80             $12,013,300.00        2.96                    .82%                 3 
RITA 

                                  $17,173.00              $5,922,000.00         .29                                           
        RITAX777: Common IT 
 Services (consolidated with 
                  DOTXX070)  

                                  $300,865.00             $6,017,300.00         5                                             
        RITAX013:  Volpe ADP 
         Institutional Support 
  Services Contract (AISSC) 
        (previously RSPAX010; 
            consolidated with 
                  DOTXX070) 

                                  $37,000.00              $74,000.00            50 
   RITAX016: IT Support for 
        Transportation Safety 
Institute (consolidated with 
                  DOTXX070) 

                                  $60,149.80              $5,993,000.00         1                       .14%                 2 
NHTSA 

                                  $28,549.80              $5,598,000            .51                                           
        NHTSA777 Common IT 
 Services (consolidated with 
                  DOTXX070) 

                                  $31,600.00              $395,000.00           8                                             
         NHTSA008:  VEHICLE 
         RESEARCH AND TEST 
CENTER (VRTC) COMPUTER 
SYSTEM (consolidated with 
                  DOTXX070) 

                                  $79,910.00              $1,199,000.00         6.66                    .18%                 3 
OIG 

        OIGXX777 Common IT        $7,910.00               $799,000.00           .99                                           

 Services (consolidated with 
                  DOTXX070) 
 OIGXX001:  Transportation        $0.00                   $0.00                 0                                             

            Inspector General 
             Reporting (TIGR) 
           (consolidated with 
                  DOTXX070) 
       OIGXX002 OIG General       $72,000.00              $400,000.00           18 
   Support/Maintenance of 
   Network, ADP Hardware 
and Software (consolidated 
             with DOTXXO70) 

        GRAND TOTALS 
                                     $43,220,037.70         $202,332,300.00             21.36%                  100%                43 

Appendix A. KPMG LLP Report                                                                                                       Page 24
                                                                                                      34

                                                                                         FINAL REPORT

Of the $43,220,037.70 in security costs for the IT Combined Infrastructure investment, the common IT
services represent $2,146,449.60 or approximately 5%. The remaining $41,073,588.10 represents the
remainder of the investment.

Because DOT has not provided guidance on estimating IT security costs, the security estimates are being
self-reported by the OAs and do not follow any consistent, predictable methodology from which future
projections can be based by OST. In addition, there is no accountability over the reasonableness of the
estimates provided by the OAs that represent the investments that are not related to the common operating
environment. Finally, the security costs for the common IT services do not follow a consistent
methodology that provides a reasonable estimate of future security costs based on the services rendered as
the subordinate investments are migrated to the common operating environment. This weakness is noted
in the Findings and Recommendations section this report.




Appendix A. KPMG LLP Report                                                                     Page 25
                                                                                                                                           35


                                                                                                                         FINAL REPORT


IV.          FINDINGS and RECOMMENDATIONS

We conducted procedures related to the Earned Value Management (EVM) and security cost estimating
policies, procedures and controls in place over certain Department of Transportation (DOT) Operating
Administration’s (OAs) and major IT investments and have reported our overall findings and
recommendations within this report. We performed this performance audit at the Department’s
headquarters and at the Federal Aviation Administration (FAA) locations in Washington D.C. This
performance audit consisted of reviewing applicable policies and procedures, which included
interviewing key personnel and reviewing key reports.

The DOT has established an EVM policy that contains pre-established dollar thresholds and guidance for
IT investment owners to consider when implementing EVM. In addition, various modes have improved
their use of EVMS by establishing supporting materials, such as IT project management and EVM
implementation guidance, providing EVM training and conducting EVM lessons learned. While these
items help provide a foundation of EVM guidance for modes to follow and investments to use, there are
opportunities for improvement to further implement and use EVM to help manage major IT investments.
In addition, we identified weaknesses in the security cost estimating process across the modes. Our 2008
performance audit communicates three recommendations related to controls over the reliability of EVMS
data, the reasonableness of security cost estimates, and the controls over the implementation and
completeness of EVMS. The three findings are further described in the table below. Each finding
contains a description of the condition(s) or weaknesses/observations, the cause and effect, the criteria
used to support the noted weaknesses/observations, and the recommendation(s).


                                                                     2008 Notice of Findings and Recommendations
                 2008‐1: Controls Over the Reliability      2008‐2: Controls Over the                2008‐3: Controls Over the 
                 of EVMS Data Should Be                     Reasonableness of Security Cost          Implementation and Use of EVMS In 
                 Strengthened                               Estimates and Reporting Should Be        Project Oversight Should Be 
                                                            Strengthened                             Strengthened 

Condition         During our review of the EVMS used        During our review of the security        During our review of the implementation 
                 at the Department of Transportation        cost reporting practices performed       and completeness of EVMS practices 
                 (DOT), we identified the following         at the Department of                     performed at the Department of 
                 exceptions related to the reliability      Transportation (DOT), we identified      Transportation (DOT) we identified the 
                 of EVMS data:                              the following exceptions:                following exceptions: 
                                                                                                      
                 A. Controls to prevent                     A. There are no DOT specific             A. The Department of Transportation 
                       unauthorized changes to the                policies or procedures for               (DOT) Earned Value Management 
                       spreadsheets (i.e., key cells and          estimating, tracking and                 policy: 
                       spreadsheets used to calculate             reporting security costs.  This          a.    The EVM Implementation 
                       EVM) have not been identified.             includes:                                      Guidance referenced 
                                                                  a.    Provisions for                           throughout the DOT EVM 
                 B. OST has not promoted nor                            distributing resources                   policy has not yet been created 
                       provided standards for                           based on assessed risks                  nor promulgated; 
                       estimating project                         b. Provisions for using risk             b. Does not accurately recognize 
                       requirements for IT projects.                    analysis, earned value                   FAA applicability even through 
                       This includes considerations                     and return on                            FAA’s requirements for 
                       for:                                             investment to                            implementing and using EVM 
                       • Estimating resource                            determine which                          are more stringent and are 
                       requirements for project work                    security controls should                 accompanied by EVM 
                       elements                                         be funded and                            Implementation guidance; and 
                       • Assigning  management                          implemented                        c.    Does not contain provisions for  


Appendix A. KPMG LLP Report                                                                                                        Page 26
                                                                                                                                        36


                                                                                                                   FINAL REPORT

          2008‐1: Controls Over the Reliability    2008‐2: Controls Over the                   2008‐3: Controls Over the 
          of EVMS Data Should Be                   Reasonableness of Security Cost             Implementation and Use of EVMS In 
          Strengthened                             Estimates and Reporting Should Be           Project Oversight Should Be 
                                                   Strengthened                                Strengthened 

               resource/using an                            c.   Provisions for linking                  Training, Integration with 
               Organizational Breakdown                          information security                    Portfolio Management, the use 
               Structure (OBS) and                               expenditures to the                     of templates and tools. 
               Responsibility Assignment                         strategy and mission of        
               Matrices (RAM) for control                        the program                   B.   There is no consistent enterprise 
               accounts and work elements                   d.   Provisions for linking the         approach to managing and applying 
               • Estimating project activity                     security costs to OMB A‐           EVM data across modes. 
               duration and sequencing                           11 categories                 C.   OST has not promoted nor provided 
               • Establishing EVM credit                    e.   Provisions for                     standards for applying EVM in IT 
               techniques, EVM performance                       developing a                       projects.  This includes 
               analysis and reporting                            performance plan that              considerations for: 
               requirements including specific                   addresses security                 a.    Articulating and capturing 
               requirements for EVMS                             resources including                      project scope and work 
               certification and surveillance                    budget, staffing and                     assignments through 
               procedure.                                        training                                 integrated baseline reviews 
                                                                                                    b.    Decomposing work using a 
                                                       B.   Security estimates for the IT                 standard work breakdown 
                                                            Combined Infrastructure are                   structures (WBS) for IT 
                                                            self‐reported by the OAs and                  development projects (e.g., 
                                                            do not follow any consistent,                 following a standardized 
                                                            predictable methodology                       software development lifecycle 
                                                            from which future                             or SDLC) 
                                                            projections can be based by             c.    Managing concurrent efforts 
                                                            OST.  In addition, there is no                through an Integrated Master 
                                                            accountability over the                       Schedule (IMS) 
                                                            reasonableness of the                   d.    EVM rebaselining guidelines 
                                                            estimates provided by the                     and documentation retention 
                                                            OAs.  Lastly, the estimates                   requirements 
                                                            for the common IT services              e.    Conducting EVM training and 
                                                            also do not follow a                          lessons learned 
                                                            consistent methodology that        D.   There are inconsistent EVMS 
                                                            provides a reasonable                   practices being followed across 
                                                            estimate of the future                  modes and investments.  Specifically, 
                                                            security costs based on the             a.    Standard contract language for 
                                                            services rendered as the                      EVMS is not being used for 
                                                            subordinate investments are                   PHMSA and NHTSA modes and 
                                                            migrated to the common                        the ASOS/AWOS, ATOP, SMART 
                                                            operating environment.                        and FMCSA Modernization 
                                                                                                          investments. 
                                                                                                    b.    Certain modes and investments 
                                                                                                          have not performed EVMS 
                                                                                                          certification over their EVMS 
                                                                                                          operated by contractors. 
                                                                                                          Specifically the OST, NHTSA, 
                                                                                                          FMCSA, and PHMSA modes and 
                                                                                                          the TAMR, ASOS/AWOS,  




Appendix A. KPMG LLP Report                                                                                                     Page 27
                                                                                                                               37


                                                                                                            FINAL REPORT

          2008‐1: Controls Over the Reliability    2008‐2: Controls Over the            2008‐3: Controls Over the 
          of EVMS Data Should Be                   Reasonableness of Security Cost      Implementation and Use of EVMS In 
          Strengthened                             Estimates and Reporting Should Be    Project Oversight Should Be 
                                                   Strengthened                         Strengthened 

                                                                                                  SMART and FMCSA  
                                                                                                  Modernization investments. 
                                                                                             c.   Inconsistent contractor 
                                                                                                  surveillance of EVMS practices 
                                                                                                  for OST, NHTSA, FMCSA, 
                                                                                                  PHMSA modes and ATOP, TFM, 
                                                                                                  SMART and FMCSA 
                                                                                                  Modernization investments. 
                                                                                             d.   Standard WBS for development 
                                                                                                  activities are not consistently 
                                                                                                  used by PHMSA or the SMART 
                                                                                                  investment. 
                                                                                             e.   EVMS reporting frequency 
                                                                                                  performed quarterly for 
                                                                                                  NHTSA. 




Appendix A. KPMG LLP Report                                                                                           Page 28
                                                                                                                                     38


                                                                                                                  FINAL REPORT

          2008‐1: Controls Over the Reliability     2008‐2: Controls Over the               2008‐3: Controls Over the 
          of EVMS Data Should Be                    Reasonableness of Security Cost         Implementation and Use of EVMS In 
          Strengthened                              Estimates and Reporting Should          Project Oversight Should Be 
                                                    Be Strengthened                         Strengthened 

Cause     A.   EVM certification and                A, B. OST, who has responsibility       A.   OST, who has responsibility for 
               surveillance activities generally    for coordinating and promulgating            coordinating and promulgating EVM 
               do not include specific              security cost estimating, tracking           requirements, has not had adequate 
               considerations for protecting        and reporting requirements, has              resources dedicated to creating and 
               EVM data and tools from              not had adequate resources                   promulgating EVM requirements. 
               unauthorized access or changes       dedicated to creating and               B.   There are no DOT requirements to 
               or for monitoring the accuracy       promulgating these requirements.             apply an enterprise approach to EVM 
               and completeness of EVM data                                                      for projects. 
               being collected and reported in                                              C.   OST, who has responsibility for 
               EVM policy or in contractor                                                       coordinating and promulgating EVM 
               statements of work (SOW).                                                         requirements, has not had adequate 
          B.   OST, who has responsibility for                                                   resources dedicated to creating and 
               coordinating and promulgating                                                     promulgating EVM requirements. 
               EVM requirements, has not had                                                D.   OST, who has responsibility for 
               adequate resources dedicated                                                      coordinating and promulgating EVM 
               to creating and promulgating                                                      requirements, has not had adequate 
               EVM requirements.                                                                 resources dedicated to creating and 
                                                                                                 promulgating EVM requirements. 
                                                                                             
Effect    A.   Without adequate controls            A, B. Without completed provisions      A.   Without completed policies, certain 
               over the tools being used, EVM       for estimating, analyzing, and               provisions for using and managing 
               data being calculated or             reporting security costs, modes are          projects using EVM may be 
               reported can be altered,             left to estimate costs using self‐           incomplete and inconsistently 
               intentionally or unintentionally,    approved techniques.  This may               applied for EVM benefits to be 
               making EVM data accuracy and         result in security cost estimates            obtained. 
               reliability questionable.            that are inefficient, unnecessary or    B.   DOT may not be recognizing the 
          B.   Without completed policies,          redundant and inconsistent across            benefits of consistent and reliable 
               certain provisions may be            modes.                                       information by leveraging an 
               inconsistently applied.                                                           enterprise approach to 
                                                                                                 implementing EVM in projects. 
                                                                                            C.   Without completed policies, certain 
                                                                                                 provisions may be inconsistently 
                                                                                                 applied. 
                                                                                            D.   Without completed provisions for 
                                                                                                 EVMS standardization and 
                                                                                                 implementation, EVMS may be 
                                                                                                 inconsistently applied across projects 
                                                                                                 requiring its use. 
                                                                                             




Appendix A. KPMG LLP Report                                                                                                Page 29
                                                                                                                                                          39


                                                                                                                                   FINAL REPORT

            2008‐1: Controls Over the Reliability             2008‐2: Controls Over the                         2008‐3: Controls Over the 
            of EVMS Data Should Be                            Reasonableness of Security Cost                   Implementation and Use of EVMS In 
            Strengthened                                      Estimates and Reporting Should                    Project Oversight Should Be 
                                                              Be Strengthened                                   Strengthened 

Criteria    A.          CIO  Council  A  Framework  for       A, B. OMB Circular A‐11, Exhibit 53:              A.   OMB memo M‐05‐23 Improving 
                     Developing  Earned  Value                "Federal  agencies  must  consider                     Information Technology (IT) Project 
                     Management                    Systems    the  following  criteria  to  determine                Planning and Execution, “Full 
                     (EVMS)        Policy      for      IT    security  costs  for  a  specific                      Implementation of EVMS for IT 
                     Investments,  Section  4.2.1             investment:             The       products,            projects includes… comprehensive 
                     EVM  Data  Collection,  “The             procedures, and personnel (Federal                     agency policies.” 
                     agency  EVM  policy  should              employees  and  contractors)  that                 
                     outline  a  systematic  way  to          are  primarily  dedicated  to  or  used                CIO Council A Framework for 
                     collect  data  necessary  to             for  provision  of  IT  security  for  the             Developing Earned Value 
                     support  EVM.  The  agency               specific  IT  investment.    Do  not                   Management Systems (EVMS) Policy 
                     EVM  policy  should  describe            include  activities  performed  or                     for IT Investments, Section 4.2.3 
                     any  templates,  tools,  and             funded  by  the  OIG.    When                          Integration with Portfolio 
                     systems           utilized       and     determining  the  percentage  of  IT                   Management, "Agency EVM policy 
                     additionally  provide  controls          security include the costs of:  ‐ Risk                 should address the use of EVMS 
                     to  ensure  the  data  is                assessment; ‐ Security planning and                    data and analysis to make 
                     collected  consistently  and             policy;      ‐          Certification       &          management and IT portfolio 
                     reliably          to           inform    Accreditation;              ‐         Specific         management and Capital Planning 
                     management  decisions.  The              management,  operational,  and                         and Investment Control (CPIC) 
                     agency  EVM  policy  should              technical  security  controls  (to                     decisions (i.e., how and when is 
                     detail  any  systems  used  to           include  access  control  systems  as                  performance data received by the 
                     track  data  and  the  process           well  as  telecommunications  and                      agency; who reviews it; is further 
                     for  tracking  actual  costs  at         network security); ‐ Authentication                    analysis done; does the agency use a 
                     the  control  account  level.            or  cryptographic  applications;  ‐                    tool to manage the data reported; 
                     The  agency  EVM  policy                 Education, awareness, and training;                    how is performance information 
                     should  additionally  address            ‐    System            reviews/evaluations             reported to senior management; 
                     collection  of  data  from  both         (including  security  control  testing                 and what they do with the 
                     government  and  contractor              and  evaluation);  ‐  Oversight  or                    information)."  Section 4.2.4 
                     resources.”                              compliance              inspections;         ‐         Training, "Agency EVM policy should 
            A.          Office of Budget Circular A‐          Development  and  maintenance  of                      outline guidelines on training for 
                     11,  p.9  of  section  230  Data         agency  reports  to  OMB  and                          program office staff and contractor 
                     Limitations,  "In  order  to             corrective  action  plans  as  they                    personnel on the analysis of 
                     assess  the  progress  towards           pertain to the specific investment; ‐                  generated earned value data. 
                     achievement of performance               Contingency planning and testing; ‐                    Suggestions for training include: 
                     goals,  the  performance  data           Physical       and          environmental              formal training classes; contractor‐
                     must        be    accurate       and     controls      for        hardware         and          sponsored training; on‐the‐job 
                     reliable.    Significant  or             software;         ‐       Auditing        and          training; and training materials, 
                     known data limitations                   monitoring; ‐ Computer security                        available on performance 
                                                                                                                     management websites." Section 4.4 
                                                                                                                     Templates and Tools, "Templates 
                                                                                                                     and tools are not a substitute for the 
                                                                                                                     establishment and adherence to 
                                                                                                                     EVMS processes but can be used to 




Appendix A. KPMG LLP Report                                                                                                                   Page 30
                                                                                                                                                     40


                                                                                                                               FINAL REPORT

          2008‐1: Controls Over the Reliability               2008‐2: Controls Over the                    2008‐3: Controls Over the 
          of EVMS Data Should Be                              Reasonableness of Security Cost              Implementation and Use of EVMS In 
          Strengthened                                        Estimates and Reporting Should               Project Oversight Should Be 
                                                              Be Strengthened                              Strengthened 

                  should  be  identified  in  the             investigations  and  forensics;  and  ‐           assist in the management and 
                  performance              plan       and     Reviews,  inspections,  audits  and               reporting of EVMS data. The agency 
                  include  a  description  of  the            other  evaluations  performed  on                 EVM policy should address the 
                  limitations,  the  impact  it  has          contractor facilities and operations.             development and review of any 
                  on  goal  achievement,  and                 Other  than  those  costs  included               templates and specify all agency 
                  the  actions  that  will  be                above,  security  costs  may  also                tools used to collect, manage, and 
                  employed  to  correct  the                  include  the  products,  procedures,              report on EVMS data.” 
                  limitations.    Performance                 and  personnel  (Federal  employees           
                  data  need  not  be  perfect  to            and  contractors)  that  have  as  an        B.   Unknown. 
                  be        reliable;         however         incidental or integral component, a          C.   PMI's Earned Value Management 
                  significant  data  limitations              quantifiable  benefit  to  IT  security           (EVM) Practice Standard “The key 
                  can      lead      to     inaccurate        for  the  specific  IT  investment.  This         practices of EVM include: 
                  assessments          and         distort    includes                         system           • Establishing a performance 
                  performance results.”                       configuration/change  management                  measurement baseline (PMB) that 
           B.     PMI's         Earned              Value     control,      personnel        security,          includes decomposing work scope to 
                  Management (EVM) Practice                   physical      security,      operations           a manageable level; assigning 
                  Standard, “The key practices                security,       privacy        training,          unambiguous management 
                  of       EVM         include          1)    program/system evaluations whose                  responsibility; developing a time‐
                  Establishing  a  performance                primary  purpose  is  other  than                 phased budget for each work task; 
                  measurement                  baseline       security,  systems  administrator                 selecting EV measurement 
                  (PMB)            that        includes       functions, and, for example, system               techniques for all tasks; maintaining 
                  decomposing  work  scope  to                upgrades      within       which    new           integrity of PMB throughout the 
                  a        manageable               level;    features obviate the need for other               project. 
                  assigning            unambiguous            standalone security controls.”?                   • Measuring and analyzing 
                  management  responsibility;                                                                   performance against the baseline 
                  developing  a  time‐phased                                                                    that includes record resource usage 
                  budget  for  each  work  task;                                                                during project execution; objectively 
                  selecting  EV  measurement                                                                    measure the physical work progress; 
                  techniques  for  all  tasks;                                                                  crediting EV according to EV 
                  maintaining integrity of PMB                                                                  techniques; analyzing and forecasting 
                  throughout  the  project  and                                                                 cost/schedule performance; 
                  2)  Measuring  and  analyzing                                                                 reporting performance problems 
                  performance  against  the                                                                     and/or take action> “? 
                  baseline that includes record                                                                  
                  resource          usage          during                                                  D.   Unknown. 
                  project                   execution; 
                  objectively        measure          the 
                  physical         work       progress; 
                  crediting  EV  according  to  EV 
                  techniques;  analyzing  and 
                  forecasting         cost/schedule 
                  performance;               reporting  
                  performance                problems 
                  and/or take action. 



Appendix A. KPMG LLP Report                                                                                                               Page 31
                                                                                                                                           41


                                                                                                                       FINAL REPORT

                    2008‐1: Controls Over the Reliability    2008‐2: Controls Over the              2008‐3: Controls Over the 
                    of EVMS Data Should Be                   Reasonableness of Security Cost        Implementation and Use of EVMS In 
                    Strengthened                             Estimates and Reporting Should         Project Oversight Should Be 
                                                             Be Strengthened                        Strengthened 

Recommendation      A.   Ensure that controls over the       A, B. Consider incorporating the       A.   Evaluate, complete and promulgate 
                         process of collecting and           standards for security budgeting as         the EVM policy and Implementation 
                         reporting EVM data contain          described in the observations,              Guide. 
                         adequate provisions for             promulgate and monitor the use of      B.   Evaluate the cost/benefits of 
                         controlling access and changes      the standards across modes.                 leveraging an enterprise technology 
                         to the EVM data.  In addition,                                                  for managing projects and 
                         adequate controls should be                                                     calculating EVM project level data. 
                         included over the analysis and                                             C.   Consider incorporating the standards 
                         monitoring processes in order                                                   for applying EVM in project 
                         to verify the accuracy and                                                      requirements as described in the 
                         completeness of the EVM data.                                                   observations and incorporate in the 
                         These provisions should be                                                      to‐be released EVM Implementation 
                         contained in related EVM policy                                                 Guide. 
                         and implementation                                                         D.   Consider incorporating the standards 
                         procedures and in                                                               for implementing and using EVM as 
                         corresponding SOW with                                                          described in the observations and 
                         contractors.                                                                    incorporate in the to‐be released 
                    B.   Consider incorporating the                                                      EVM Implementation Guide. 
                         standards for estimating                                                    
                         project requirements as                                                     
                         described in the observations 
                         and incorporate in the to‐be 
                         released EVM Implementation 
                         Guide. 
                     
Applicable          A.   FMCSA, PHMSA, FAA                   A.   OST                               A.   OST 
Modes               B.   OST                                 B.   OST                               B.   OST 
                                                                                                    C.   OST 
                                                                                                    D.a.  PHMSA, NHTSA 
                                                                                                    D.b.  OST, NHTSA, FMCSA, PHMSA 
                                                                                                    D.c.  OST, NHTSA, FMCSA, PHMSA 
                                                                                                    D.d. OST, PHMSA 
                                                                                                    D.e. NHTSA 
                                                                                                     
Applicable major    A.   FAA (ASOS/AWOS, ATM/TFM,            A.   IT Combined Infrastructure        A.   N/A 
IT investments           ATOP; PHMSA (SMART); FMCSA          B.   IT Combined Infrastructure        B.   N/A 
                         (FMCSA Modernization)                                                      C.   N/A 
                    B.   N/A                                                                        D.a. FAA (ASOS/AWOS, ATOP); PHMSA 
                                                                                                    (SMART); FMCSA (FMCSA Modernization) 
                                                                                                    D.b. FAA (TAMR, ASOS/AWOS); PHMSA 
                                                                                                    (SMART); FMCSA (FMCSA Modernization) 
                                                                                                    D.c. FAA (ATM/TFM, ATOP); PHMSA 
                                                                                                    (SMART); FMCSA (FMCSA Modernization) 
                                                                                                    D.d. PHMSA (SMART) 
                                                                                                    D.e. N/A 
                                                                                                     




Appendix A. KPMG LLP Report                                                                                                      Page 32
                                                                                            42


                                                                               FINAL REPORT


MANAGEMENT RESPONSE TO REPORT

The Office of Inspector General (OIG) will be issuing a separate report for which this
performance audit report will be included as an appendix. The Department of Transportation’s
(DOT) management response, including concurrence or non-concurrence to the findings and
recommendations in this performance audit report, will be included as part of the OIG’s overall
report.




Appendix A. KPMG LLP                                                                 Page   33
           APPENDIX B. MANAGEMENT RESPONSE                                                    43




           U.S. Department of
                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation

Subject:   ACTION: Management Response to Office of                 Date:    April 10, 2009
           Inspector General Draft Report, “Quality Control
           Review of the Department’s Implementation of
           Earned Value Management and Security Cost
           Reporting.”

  From:    Jacquelyn Patillo                                     Reply to
                                                                 Attn. of:   S-81, x69201
            Acting Chief Information Officer, DOT
    To:    Rebecca C. Leng
           Assistant Inspector General for Financial
            and Information Technology Audits

           Thank you for providing us with the draft report of your audit, "Quality Control
           Review of the Department's Implementation of Earned Value Management and
           Security Cost Reporting." We appreciate the recommendations in your report and
           will use them to help achieve full compliance with key OMB requirements for
           Earned Value Management (EVM) implementation.

           Recommendation 1. Establish a target date to complete and distribute the DOT
           EVM implementation guidance to Operating Administrations This guidance
           should document processes and practices consistent with guidelines published
           by OMB and address the detailed recommendations included in KPMG's report
           in Appendix A.

           Concur. The Office of the Chief Information Office will issue an expanded DOT
           Earned Value Management policy and associated guideline no later than
           September 30, 2009. The DOT EVM policy will include EVM best practices to
           ensure controls over collecting and reporting EVM data are established,
           implemented, and monitored. The controls will include techniques for planning,
           estimating, change control, integrated baseline reviews, reporting, conducting
           operational analysis and taking corrective actions. The EVM guideline will
           include the standards, processes, and templates to be used by the DOT Operating

           Appendix B. Management Response
                                                                               44

Administrations. The EVM guideline will be developed in accordance with OMB
A-11 requirements and in consideration of the recommendations detailed in
KPMG's report.

Recommendation 2. Require Operating Administrations to review all major IT
investments in the development phase for compliance with key OMB
requirements for EVM implementation and report results to the CIO office.
Ensure that Operating Administrations establish a target date for correcting
deficiencies found.

Concur. Each Operating Administration currently has a POA&M for full
implementation of EVM and progress on the actions is reported to the CIO office.
DOT has already begun incorporating EVM as a topic of discussion during
Investment Review Board meetings. In addition, the DOT Health of the
Investment / Program Management Review monitoring and reporting tools are
being consolidated to ensure a holistic view of each investment is reviewed and
evaluated by DOT senior management. 'This consolidated assessment will be the
primary EVM monthly data submission platform, allowing data discrepancies at
the investment level to be quickly identified and mitigated and require that
operating administrations establish target dates. DOT expects to reach the goal of
full compliance with key OMB requirements for EVM implementation by
December 2009.

Recommendation 3. Establish security cost estimation standards consistent with
the National Institute and Standards and Technology, require Operating
Administrations to follow the standards, and verify compliance with the
standards by performing a sample review of Operating Administrations' security
cost estimate submission.

Concur. DOT's analysis of security cost estimating practices has also shown that
while, the Operating Administration are using cost estimating techniques as part of
their IT investment processes, they would benefit from greater consistency across
organizations. By June 30, 2009, the DOT CIO will issue a guidance document to
identify Department wide expectations intended to standardize the Operating
Administration security cost estimating techniques to in accordance with National
Institute of Standards and Technology Control Families. In order to help ensure
compliance with this guidance, by August 30, 2009, DOT will conduct sample
reviews to verify that the security cost estimating guidelines are being utilized in
preparing the Exhibit 300s for Budget Year 2011.

                                         #

Appendix B. Management Response
